  DEPARTMENT OF HOMELAND SECURITY

   Ofﬁce of Inspector General

      REVIEW OF ALLEGED ACTIONS BY
TRANSPORTATION SECURITY ADMINISTRATION
 TO DISCIPLINE FEDERAL AIR MARSHALS FOR
    TALKING TO THE PRESS, CONGRESS,
              OR THE PUBLIC




       Ofﬁce of Audits
OIG-05-01      November 2004
                                                                      Ofﬁce of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Ofﬁce of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG as part of its DHS oversight responsibility to identify and prevent fraud,
waste, abuse, and mismanagement.

This report assesses the strengths and weaknesses of the program or operation under review. It
is based on interviews with employees and ofﬁcials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein, if any, have been developed to the best knowledge available to the
OIG, and have been discussed in draft with those responsible for implementation. It is my hope
that this report will result in more effective, efﬁ
                                                efﬁcient,
                                                   cient, and economical operations. I express my
appreciation to all of those who contributed to the preparation of this report.




                                              Clark Kent Ervin
                                              Inspector General
                                                                                                              Contents

  Introduction ...                                                                                                                    3


  Results in Brief                                                                                                                    4


  Background ...                                                                                                                      4


  FAMS and TSA Investigations of Air Marshals ..............................................................................6


  Retaliation or Threats of Retaliation................................................................................................8



Appendices

  Appendix A: Purpose, Scope, and Methodology............................................................................9


  Appendix B: Major Contributors to This Report..........................................................................10


  Appendix C: Report Distribution..................................................................................................11


Abbreviations
  ASAC                                Assistant Special Agent In Charge

  USA PATRIOT Act                     Uniting and Strengthening America by Providing Appropriate Tools
                                      Required to Intercept and Obstruct Terrorism Act (Public Law 107-56)
  DHS                                 Department of Homeland Security
  DOT                                 Department of Transportation
  FAMS                                Federal Air Marshal Service
  ICE                                 Immigration and Customs Enforcement
  OIG                                 Ofﬁce of Inspector General
  SAC                                 Special Agent In Charge
  SSI                                 Sensitive Security Information
  TSA                                 Transportation Security Administration




                                    TSA - Federal Air Marshals – OIG-05-01                                                          Page 1
Contents





Page 2      TSA - Federal Air Marshals – OIG-05-01
OIG

Department of Homeland Security
Ofﬁce of Inspector General


    Introduction

                                   The Ofﬁce of Inspector General (OIG), at the request of Congressman Jim Turner,
                                   ranking member of the House Select Committee on Homeland Security, reviewed
                                   allegations that the Transportation Security Administration (TSA) was conducting
                                   a “witch hunt” to ferret out and discipline employees in the federal air marshal
                                   program who talked to the media about a TSA decision to remove air marshals
                                   from certain long distance ﬂights to save overnight lodging costs. The allegations
                                   included a charge that some air marshals had been threatened with having the
                                   USA PATRIOT Act1 used against them.

                                   The objectives of the audit were to determine whether employees in the federal air
                                   marshal program, as a result of disclosing sensitive information to the press, the
                                   Congress, or the public:

                                        • 	 Have been investigated, and if so, under what authority;
                                        • 	 Have suffered retaliation or were threatened with retaliation; or
                                        • 	 Have had actions taken or threatened against them under authority of the
                                            USA PATRIOT Act.

                                   We performed audit ﬁeldwork from November 2003 to March 2004. We
                                   interviewed TSA and Federal Air Marshal Service (FAMS) ofﬁcials at
                                   headquarters, System Operation Control Division, and Human Resource
                                   Management Branch. We visited 8 of 21 FAMS ﬁeld ofﬁces and interviewed
                                   Special Agents in Charge (SAC), Assistant Special Agents in Charge (ASAC), and
                                   157 air marshals at these locations.




    1
        Uniting and Strengthening America by Providing Appropriate Tools Required to Intercept and Obstruct Terrorism Act; Public Law 107-56




                                           TSA - Federal Air Marshals – OIG-05-01	                                                  Page 3
Results in Brief
                             The FAMS and TSA conducted nine investigations of air marshals for allegedly
                             talking to the press or public. These investigations, and actions taken by
                             FAMS and TSA against air marshals as a result of these investigations, were
                             appropriate under the circumstances. We found no evidence that air marshals
                             were investigated or retaliated against for talking to Congress, or were threatened
                             with or had action taken against them under authority of the USA PATRIOT
                             Act. However, air marshals from two locations said that they were threatened
                             with arrest and prosecution if they were found to have released sensitive security
                             information (SSI), even though release of SSI is not a prosecutable offense. TSA,
                             Immigration and Customs Enforcement (ICE), and FAMS provided technical
                             comments on a draft of this report, which we incorporated where appropriate.

Background

                             The Aviation and Transportation Security Act empowered TSA to deploy air
                             marshals on all passenger airline ﬂights. It required that TSA deploy air marshals
                             on all high-risk ﬂights and give priority to long distance non-stop ﬂights, such as
                             those used on September 11, 2001, when determining risk.

                             On July 30, 2003, two articles discussing FAMS issues appeared on the MSNBC
                             website, an online news service. The ﬁrst article alleged that TSA planned to
                             remove air marshals from some long distance ﬂights because of budget shortfalls,
                             leaving many high-risk ﬂights unprotected. A second article later that day
                             reported that TSA reversed the decision to remove the air marshals.

                             The FAMS’ plan to limit air marshal missions on cross-country and international
                             ﬂights was the result of reprogramming actions by TSA. According to a
                             Government Accountability Ofﬁce report, reprogramming actions reduced FY
                             2003 FAMS program funding from $545 million to approximately $450 million,
                             a difference of $95 million.2 While the GAO report concluded that the impact
                             of the budget reduction on FAMS operations was not as signiﬁcant as FAMS
                             ofﬁcials estimated, FAMS ofﬁcials thought the reduction in cross country and
                             international ﬂights was necessary to meet budgetary requirements. The FAMS
                             Director began to reduce scheduled air marshal coverage on cross-country and
                             international ﬂights at the end of July 2003, to be effective August 3, 2003. On

2
    Government Accountability Ofﬁce report number GAO-04-577R, Air Marshal Reprogramming




Page 4                                                TSA - Federal Air Marshals – OIG-05-01
July 30, 2003, the scheduled reduction was reported on the MSNBC website. On
July 31, 2003, TSA allocated an additional $9 million to the FAMS and the full
schedule of cross-country and international ﬂights was resumed.

There was a temporary decline in the number of ﬂights that air marshals ﬂew
beginning on August 1, 2003. Flights decreased by as much as 17% before
returning to normal on August 6, 2003. Although the air marshal schedule was
reinstated prior to August 2, previously scheduled ﬂights could not be restored
due to the complexity of the scheduling process.

The FAMS Director sent memoranda to all FAMS employees on July 30 and
August 1, 2003, concerning disclosure of sensitive information. In his ﬁrst
memorandum, the FAMS Director said that each air marshal had a critical role
to play to ensure operational integrity and that public discussion of strategic
deployment of air marshals was not in the best interest of operational security. In
his second memorandum, the Director said that some air marshals had chosen to
disclose and disseminate sensitive information, which was a violation of FAMS
policy. He also said that this conduct could jeopardize the FAMS mission, FAMS
personnel, and the security of our country. According to the memorandum, the
policy would be strictly enforced.

SACs were instructed to make sure that all air marshals received, read, and
understood the second memorandum relating to FAMS policies on the release
of SSI and classiﬁed information. At all ﬁeld ofﬁces that we visited, the SAC,
ASAC, or a front line supervisor had addressed air marshals about operational
security. Some ﬁeld ofﬁces required the air marshals sign a document attesting to
the fact that they had read and understood the memorandum’s contents.

On August 21, 2003, a third MSNBC article reported that TSA was conducting a
“witch hunt” to ferret out and discipline employees in the FAMS who had talked
to the media. This article further alleged that air marshals were told that TSA
planned to use the USA PATRIOT Act authority to determine who talked to the
media.

Congress passed the USA PATRIOT Act following the September 11, 2001,
terrorist attacks. The law gave federal ofﬁcials greater authority to track and
intercept communications for law enforcement and foreign intelligence gathering
purposes. It provided enhanced surveillance procedures in order to counter
terrorism.




      TSA - Federal Air Marshals – OIG-05-01                                 Page 5
                              In November 2003, FAMS was transferred from TSA to ICE. Department
                              ofﬁcials said that the move increased DHS’ ability to respond to air security
                              threats by creating a larger number of trained federal agents who can respond
                              during times of crisis.

FAMS and TSA Investigations of Air Marshals
                              FAMS conducted seven investigations and TSA conducted two investigations of
                              air marshals for allegedly disclosing sensitive information to the press or public.
                              There were no investigations of air marshals for allegedly disclosing information
                              to the Congress. FAMS policy prohibits the disclosure of information concerning
                              the FAMS, TSA, or Department of Transportation (DOT) to the press without the
                              permission of the FAMS Director.3 This policy also restricts the disclosure of SSI,
                              which includes information concerning the number of air marshals, air marshal
                              deployments or missions, and the methods involved in FAMS operations. The
                              nine investigations are discussed below.

                              FAMS Investigations

                              Two air marshal investigations concerned the release of information to a third
                              party, and were resolved with counseling. Two other investigations concerned
                              air marshals disclosing their identities while on missions. One of these cases
                              was resolved by counseling, and the other resulted in a suspension because it
                              was a second offense. The other three investigations resulted in air marshals
                              being terminated, resigning, or being placed on administrative leave. They are
                              discussed below.

                                    • 	 An air marshal was terminated for divulging SSI in a newspaper
                                        article. The air marshal disclosed speciﬁc information about operations,
                                        including ﬂight seat location, work schedule, workforce size, and a
                                        description of training equipment. The article also included the air
                                        marshal’s picture.

                                    • 	 An air marshal was investigated for providing an article for a
                                        professional association newsletter without obtaining prior authorization.
                                        The association is comprised of law enforcement personnel, ﬁreﬁghters,

3
  According to FAM Administrative Directive Manual 3700, Employee Responsibility and Conduct, “Only the Director FAMS, or his
designee, may authorize any public statements concerning the FAMS, TSA, or DOT. Unless designated by the Director FAMS, employees
shall not address public gatherings, appear on radio or television, prepare any articles for publication, act as correspondents to a newspaper
or periodical, release or divulge investigative information or any other matters pertaining to the FAMS, TSA, or DOT.”


Page 6	                                                    TSA - Federal Air Marshals – OIG-05-01
                                          military personnel, and other related professionals. The air marshal
                                          resigned before the investigation was completed.

                                     • 	 An air marshal was investigated for participating in an unofﬁcial internet
                                         website. The air marshal allegedly made disparaging statements about
                                         the SAC. The air marshal was placed on administrative leave and was
                                         ultimately returned to normal duties.

                               TSA Investigations

                               Two TSA Ofﬁce of Internal Affairs investigations involved air marshals allegedly
                               disclosing SSI. The ﬁrst case involved a FAMS employee, not an air marshal,
                               who was believed to have disclosed SSI to a reporter for MSNBC. This employee
                               resigned prior to the completion of the investigation and the case was closed.

                               The second investigation involved a person, believed to be an air marshal,
                               who may have disclosed SSI on an unofﬁcial internet website. Participation in
                               any such unofﬁcial internet websites is against FAMS policy. TSA focused its
                               investigation, however, only on air marshals who posted SSI on the website.
                               There were two incidents where someone, using an internet alias, had disclosed
                               SSI on an internet website. TSA was unable to determine the person’s identity
                               and the case was closed.

                               According to FAMS policy, employees are prohibited from releasing sensitive
                               or classiﬁed information unless authorized by the FAMS Classiﬁed Documents
                               Custodian. Violators of this policy are subject to disciplinary action. Air
                               marshals are required to sign a statement annually that requires them not to
                               disclose SSI.

                               Federal regulations4 prohibit disclosure of sensitive information obtained or
                               developed in carrying out security activities. According to the regulations, SSI
                               includes security directives and information circulars, information that may reveal
                               a systemic vulnerability of the aviation system, and speciﬁc details of aviation
                               security measures. This included the numbers of air marshals, their deployments
                               or missions, and the methods involved in FAMS operations.

                               The actions taken by FAMS and TSA in the nine cases discussed above were
                               consistent with current guidelines and regulations. Section 17.a. of TSA’s

4
    Title 49 Code of Federal Regulation, Part 1520



                                       TSA - Federal Air Marshals – OIG-05-01	                               Page 7
                             directive on Employee Responsibilities and Conduct instructs employees not
                             to “…criticize or ridicule FAMS, TSA, or DOT policy or other employees by
                             speech, writing or other expressions that is defamatory, obscene, unlawful,
                             impairs the operation or efﬁciency of the FAMS, TSA, or DOT, or is made with
                             reckless disregard for the truth.” Section 5.b.5. of the directive warns that “…
                             violation of this directive…may be cause for appropriate corrective or disciplinary
                             action in addition to any action or penalty prescribed by law.”

Retaliation or Threats of Retaliation
                             We interviewed 157 air marshals, 120 of whom did not believe that FAMS
                             management had threatened them, and seven of whom refused to comment on this
                             issue. The remaining 30 air marshals believed they had been threatened about
                             disclosing information to the press or public. Many of those 30 air marshals
                             provided no details on alleged threats, other than saying that FAMS management
                             said they would take action against anyone found to be disclosing information
                             improperly. FAMS policy prohibits the disclosure of SSI and is punishable
                             by disciplinary actions. Disclosure of SSI is also a violation of 49 CFR and is
                             punishable by civil penalty and other enforcement or corrective actions.

                             Five air marshals, from two ﬁeld ofﬁces, said they were threatened with
                             prosecution for disclosing information to the press or public. They said their
                             supervisors’ threats included being led away in handcuffs, being ﬁred and
                             prosecuted, or being subjected to polygraph exams if the leaks continued.
                             Neither FAMS policy nor current regulations mention criminal penalties for
                             leaking SSI. However, according to the FAMS policy, employees who release
                             classiﬁed information or records in any form without authority from the Classiﬁed
                             Documents Custodian are in violation of United States Code and are subject to
                             arrest and prosecution.5 While the alleged threats made to the air marshals may
                             have been excessive, based on current guidelines, it should be noted that some
                             information considered SSI prior to September 11, 2001, is now being classiﬁed
                             as secret.

                             We found no evidence that TSA or FAMS had taken or threatened to take any
                             action against any air marshal under authority of the USA PATRIOT Act.




5
 We question the legal accuracy of this policy statement, which seems to criminalize all releases of classiﬁed information. However,
analyzing the FAMS Directives System is outside the scope of this audit.


Page 8                                                   TSA - Federal Air Marshals – OIG-05-01
                                                             Appendix A
                                                             Purpose, Scope, and Methodology



Purpose, Scope, and Methodology
              At the request of Congressman Jim Turner, ranking member of the House
              of Representatives, Select Committee on Homeland Security, we reviewed
              allegations that TSA was conducting a “witch hunt” to ferret out and discipline
              employees in the federal air marshal program who have talked to the media. The
              allegations include a charge that some air marshals have been threatened with
              having the USA PATRIOT Act used against them. The objectives of the audit
              were to determine whether FAMS employees, as a result of disclosing sensitive
              information to the press, the Congress, or the public:

                  • 	 Have been investigated, and if so, under what authority;
                  • 	 Have suffered retaliation or were threatened with retaliation; or
                  • 	 Have had actions taken or threatened against them under authority of the
                      USA PATRIOT Act.

              We interviewed TSA and FAMS ofﬁcials at headquarters, the System Operation
              Control Division in Virginia, and the Human Resource Management Branch in
              New Jersey. We also visited 8 of 21 FAMS ﬁeld ofﬁces where we interviewed
              SACs, ASACs, and 157 air marshals.

              We reviewed FAMS conduct incident reports from March 2002 through
              December 2003, internal investigation reports, TSA records of congressional
              correspondence, budget requests, budget planning documents, and actual
              expenditures for FY 2003.

              The audit ﬁeldwork was performed between November 2003 and March 2004.
              We conducted this review pursuant to the Inspector General Act of 1978, as
              amended, and according to generally accepted government auditing standards.




                   TSA - Federal Air Marshals – OIG-05-01	                              Page 9
Appendix B
Major Contributors to this Report



                        Roberta N. Rickey, Field Audit Director
                        Bradley Mosher, Audit Manager
                        Larry Fugate, Auditor-in-Charge
                        Gary Wilk, Auditor




Page 10                                   TSA - Federal Air Marshals – OIG-05-01
                                                             Appendix C
                                                             Report Distribution




Department of Homeland Security
      The Secretary

      Deputy Secretary

      Chief of Staff

      General Counsel

      Under Secretary, Border and Transportation Security

      DHS OIG Liaison

      DHS Public Affairs


Transportation Security Administration
      Assistant Secretary

      Audit Liaison


Immigration and Customs Enforcement
      Assistant Secretary

      Audit Liaison


Ofﬁce of Management and Budget
      Chief, Homeland Security Branch

      DHS OIG Budget Examiner


Congress
      House Select Committee on Homeland Security
      Congressional Oversight and Appropriations Committees, as appropriate




     TSA - Federal Air Marshals – OIG-05-01                              Page 11
Page 12   TSA - Federal Air Marshals – OIG-05-01
Additional Information and Copies

To obtain additional copies of this report, call the Ofﬁce of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to Department of Homeland Security, Washington, DC
20528, Attn: Ofﬁce of Inspector General, Investigations Division – Hotline. The OIG
seeks to protect the identity of each writer and caller.
